YetterColeman LLP
o. 20-1286

ACRA

IA

Pelilioner,
-v.-

Y ETTE HARDESTY. ET AL.
Respondenls.

JOSEPH HARDE TY·

AFFIDAVIT OF ERVICE
I Chri tian J. Ward, of lawful age being duly worn upon my oath tate that I did,
on he 19th day of a 2021, from Au tin, Texa , electronically serve copie of the
BRIEF FOR HARDESTY
D SCH EIDER RESPO DE TS I OPPOSITIO in
the above entitled ca e. All par ie required to be erved have been erved
electronicall pm· uant to the Court' April 15, 2020 Order relating to COVID-19 and
the prior agreemen b all partie in thi ca e con enting to electronic ervice.
Electronic copie of the brief were ent via e-mail add re ed to the e-mail address for
each re pective party' coun el of record to the following:

SEE ATTACHED
To be filed for:
R. PA UL YETTER

J. WARD
ounsel of Record
YETTER COLE A LLP
811 Main treet. Suite 4100
Houston Texas 77002
(713) 632-8062
cward yellercolernan.com
CHRISTIA,

Coun el for Respondents Jo.~eph Hardesty a11d Yvelle Hardesty

Subscribed and worn to before me on thi the 19th day of May, 2021.
I am duly authorized under the laws of the State ofTexa to admini ter oath .

www .yetterco leman .com

811 Milin Street. Suite ·4100. Houston. Te.xas 77002
phone 713.632.8000 fax 71) .632_8002

Sacramento County v. Joseph Hardesty et al.
No. 20-1286
Counsel for Petitioner Sacramento County

Peder K. Batalden
(Counsel of Record)
Scott P. Ducler
Horvitz & Levy LLP
3601 West Olive Avenue, 8th Floor
Burbank, California 91505-4681
(818) 995-0800
p batalden@horvitzlevy.com
Counsel for Defendants-Appellants
Robert Sherrv. Roger Dickinson, and J eff Gamel

Michael G. Colantuono
(Counsel of Record)
Ryan T. Dunn
Liliane M. Wyckoff
Colantuono, Highsmith & Whatley, PC
420 Sierra College Drive, Suite 140
Grass Valley, CA 95945
(530) 421-7357
mcolantuono@chwlaw. us
Counsel for Respondents
J ay L. Schneider, Susan J.
Schneider. Jake J. Schneider,
Leland A. Schneider, Katherine A.
Schneider. Leland H. Schneider.
and Jared T. Schneider

Richard Manning Ross
(Counsel of Record)
8081 North Forbes Road
Lincoln, California 95648
RichRoss@Cal Counsel.com
Glenn W. Peterson
Millstone, Peterson & Watts, LLP
2267 Lava Ridge Court, Suite 210
Roseville, CA 95661
(916) 780-8222

